BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Reply Brief in 20-320, JANE DOE AND
JOHN DOE, Individually and as the natural parents
and next of kin of Minor Doe v. JACKSON LOCAL
SCHOOL DISTRICT BOARD OF EDUCATION,
TAMARA NEFF, MICHELLE KR1EG, JIMMIE
SINGLETON, SUSANNE WALTMAN, and HARLEY
NEFTZER, were sent via Next Day Service to the U.S.
Supreme Court, and 3 copies were sent via Next Day
Service and e-mail to the following parties listed
below, this 17th day of November, 2020:
Scott C. Peters
Peters Kalail & Markakis Co., L.P.A.
6480 Rockside Woods Blvd., South
Suite 300
Cleveland, OH 44131
(216) 503-5055
speters@ohioedlaw.com

Counsel for Respondents
Laura L. Mills
Counsel of Record
Mills, Mills, Fiely & Lucas, LLC.
101 Central Plaza South, Suite 1200
Canton, OH 44702
(330) 456-0506
LMills@MMFLlaw.com

Counsel for Petitioners

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square

I 1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on November 17, 2020.

Donna J. Wal
Becker Gallag er Legal
lishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

,ftJtfV--r\

hvL / 7--1 do ct)

l/a,tc, KJ, ~

NotacyPublic
[seal]

•

